Inspection Report I-99-10
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTION REPORT
The Potential for Fraud and INSs
Efforts to Reduce the
Risks of the
Visa Waiver Pilot Program
March 1999
Report Number I-99-10
* * * * *
TABLE OF CONTENTS
Transmittal Memorandum
INTRODUCTION
BACKGROUND
RESULTS OF INSPECTION
ILLEGAL ENTRY UNDER THE VWPP
Terrorists and Criminals
Alien Smugglers
ABUSE OF THE VWPP
Aliens Who Violate Their
Nonimmigrant Status
An Unintended Consequence of
the VWPP
DOCUMENTED FAILURE TO INTERCEPT
A Case Study of Stolen Blank
Passports
QUERYING AGAINST THE LOOKOUT SYSTEM
ENTRY OF STOLEN PASSPORT NUMBER
INFORMATION
Designation of
Responsibility
Lack of Entry
Accuracy of Entries
COLLECTION AND DISSEMINATION OF
VWPP INTELLIGENCE
EFFORTS TO PREVENT ILLEGAL ENTRY
Airline Training
Passenger Analysis Units
Yakuza Documentation Center
INS-Customs Cooperative Effort
CONCLUSION AND RECOMMENDATIONS
APPENDIX I: VISA WAIVER PILOT PROGRAM
DESIGNATED COUNTRIES
APPENDIX II: PRINCIPAL AUTOMATED
SYSTEMS
APPENDIX III: INSPECTION
METHODOLOGY
APPENDIX IV: IMMIGRATION AND
NATURALIZATION SERVICE RESPONSE
TO DRAFT REPORT
APPENDIX V: OFFICE OF THE INSPECTOR
GENERAL'S ANALYSIS OF
MANAGEMENT'S RESPONSE
MEMORANDUM FOR    DORIS MEISSNER
COMMISSIONER
IMMIGRATION AND NATURALIZATION SERVICE
FROM:
MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection
of the Potential for Fraud and INS's Efforts to
Reduce the Risks of the Visa Waiver Pilot Program,
Report Number I-99-10
In our continuing effort to address illegal immigration issues, we assessed the
Immigration and Naturalization Service's (INS) efforts at air ports of entry to minimize
illegal immigration and national security threats posed by abuse of the Visa Waiver Pilot
Program (VWPP) -- a program designed to facilitate entry of citizens of participating
countries who are traveling to the United States for business or pleasure. Travelers
entering under the VWPP do not need to obtain a visa to request entry into the United
States. During our inspection, we focused on areas related to the VWPP for which INS has
direct responsibility, recognizing that issues outside of INS' control can affect INS's
operation of the program. In addition, we realize that some issues we describe may not be
restricted to VWPP applicants; however, we highlighted the issues because the VWPP
provided another -- most likely easier -- avenue for illegal entry. This inspection is an
outgrowth of our September 1997 inspection entitled Immigration and Naturalization
Service Monitoring of Nonimmigrant Overstays, DOJ/OIG I-97-08.
The VWPP facilitates illegal entry because it eliminates the need for visitors to
obtain a U.S. visa, and therefore, they avoid the pre-screening that consular officers
normally perform on visa applicants. As a result, the checks by INS inspectors at ports of
entry become the principal, and, in many cases, the only means of preventing illegal
entry; INS inspectors have, on average, less than one minute to check and decide on each
visitor.
Abuse of the VWPP poses threats to U.S. national security and increases illegal
immigration. Some terrorists and criminals whom INS intercepted attempting to enter the
United States applied under the VWPP because they believed they would have a greater
chance of successful entry. For example, one of the World Trade Center co-conspirators
deliberately chose to use a fraudulent Swedish passport to attempt entry into the United
States because of Sweden's participation in the VWPP. It is believed that thousands of
additional mala fide VWPP applicants -- those individuals using fraudulent VWPP passports
or individuals with fraudulent intent using valid VWPP passports -- successfully entered
the United States without being intercepted. Included in this group are alien smugglers
and illegal immigrants.
During primary inspection, passports of arriving visitors that are machine-readable are
scanned by INS inspectors and automatically queried against the lookout system. The
lookout system is a computerized system containing records of individuals who should not
be allowed entry into the United States and records of stolen blank passport numbers. If
the arriving visitor presents a passport that is not machine-readable, INS inspectors are
required to manually enter only the applicant's name and date of birth, but not the
passport number, and query them against the lookout system. Therefore, the passport
numbers of passports that are not machine-readable are not routinely queried against the
lookout system's stolen passport database, thus increasing the chances that a visitor
presenting such a passport will not be intercepted.
INS has stated that the theft of passports of VWPP countries is a problem and that few
VWPP countries reported significant problems with thefts of their passports prior to their
participation in the program. INS estimates that over 100,000 blank VWPP passports have
been stolen in the past several years. Approximately 80 percent of those are not
machine-readable, which are not automatically checked against the lookout system.
Even if INS checked all passport numbers against the lookout system, the effectiveness
of the checks would be reduced by problems we identified in INS' entering of stolen VWPP
passport information. From a sample of 1,067 VWPP passports reported to INS as stolen, 567
(53.1 percent) had no lookout record. We also found that 112 of the 500 had lookout
records with discrepancies between the passport number as it was reported stolen and the
passport number as it was entered in the lookout system. When we queried our sample
against records from the Nonimmigrant Information System (NIIS) to determine whether
aliens had used these passports to enter the United States illegally, we found that 40
stolen passports (3.7percent) had been used for illegal entry and 61 other stolen
passports (5.7 percent) may have been used for illegal entry into the United States. (For
those 61 passports, NIIS records listed passport numbers that differed in the position or
absence of alpha characters in a passport number, yet the numeric characters and
nationality of the passport and the NIIS record matched.) Some of the stolen passports in
our sample were used for multiple entries.
INS headquarters officials responsible for VWPP intelligence information told us that
VWPP fraud is a significant intelligence concern but said that the INS intelligence
operation does not have an effective structure for collecting intelligence data and that
few ports of entry are consistently producing useful intelligence.
INS is aware that the VWPP presents problems for law enforcement interests and
increases the opportunity for illegal immigration. INS has developed some efforts, many
initiated in the field, to address these issues; however, these efforts tend to be ad hoc
and sporadic.
Overall, we found several areas that INS must address to better prevent mala fide VWPP
applicants from entering the United States. Therefore, we are making three
recommendations: modify primary inspection policy to ensure that the passport numbers of
VWPP applicants are queried against the lookout system; designate a unit to systematically
collect information on stolen blank VWPP passports and to ensure timely entry of stolen
passport numbers into the lookout system; and develop guidelines for the entry of passport
numbers when creating lookout records.
We sent copies of the draft report to your office on January 6, 1999, with a request
for written comments. Your March 26, 1999, response addressed each of the three
recommendations. We have attached your responses as Appendix IV.
Our analysis of your responses describes the additional actions needed for each of the
recommendations and can be found in Appendix V. Please provide the additional information
by July 15, 1999.
We appreciate the cooperation extended to our Inspections Division staff during the
course of the review. If you have any suggestions how we might improve our review process,
please let us know.
Attachment
cc:    Kathleen Stanley
Liaison
Immigration and Naturalization Service
Vickie L. Sloan
Director
Audit Liaison Office
#####